HHS/OIG-Audit--"Review of the State of Connecticut Internal Service Funds, (A-01-92-02504)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the State of Connecticut Internal Service Funds," (A-01-92-02504)
December 11, 1992
Complete
Text of Report is available in PDF format (1.38 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report discloses that, contrary to Federal requirements, Connecticut's Bureau of General and Technical
Services' Internal Service Funds had accumulated a surplus totaling $30.5 million in excessive retained earnings as of
June 30, 1990. We noted that $17.8 million was related to our five year audit period, however, we could only verify that
the State made an adjustment for $9.7 million against future indirect costs. Accordingly, we are recommending that the
State make a financial adjustment for the remaining $8.1 million ($1.62 million Federal share) of the excessive retained
earnings associated with our five year audit period. For the $12.7 million in retained earnings generated prior to our
audit period, we are recommending that the Division of Cost Allocation negotiate a settlement of the Federal share with
the State.